TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The External Leads Program Results in the
               Recovery of Erroneously Issued Tax Refunds;
                 However, Improvements Are Needed to
                  Ensure That Leads Are Timely Verified



                                         August 7, 2014

                             Reference Number: 2014-40-057




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE EXTERNAL LEADS PROGRAM                            External Leads Program’s success by volume
RESULTS IN THE RECOVERY OF                            and dollars associated with questionable
ERRONEOUSLY ISSUED TAX REFUNDS;                       returned refunds.
HOWEVER, IMPROVEMENTS ARE                             However, the IRS is not always verifying leads
NEEDED TO ENSURE THAT LEADS ARE                       timely, and verification time frame goals differ
TIMELY VERIFIED                                       significantly based on the lead type. The timely
                                                      verification goals do not take into consideration
                                                      the burden on legitimate taxpayers whose
Highlights                                            refund is being held until the verification is
                                                      completed.
Final Report issued on August 7, 2014                 In addition, leads are inconsistently tracked in
                                                      multiple inventory systems, and the inventory
Highlights of Reference Number: 2014-40-057           systems do not provide key information such as
to the Internal Revenue Service Commissioner          how the lead was resolved, i.e., refund
for the Wage and Investment Division.                 confirmed as erroneously issued or legitimate.
IMPACT ON TAXPAYERS                                   WHAT TIGTA RECOMMENDED
The External Leads Program is an IRS program          TIGTA recommended that the IRS establish
that receives leads about questionable tax            more consistent time frames to verify leads
refunds identified by a variety of partner            based on analysis of current and historical lead
organizations that include financial institutions,    verification data and, once established,
brokerage firms, government and law                   communicate these verification time frames with
enforcement agencies, State agencies, tax             external partners; develop a process to ensure
preparation entities, etc. The questionable tax       that leads are verified within established time
refunds include Treasury checks, direct               frames; and consolidate the current four lead
deposits, and prepaid debit cards. The program        inventory tracking systems into a single tracking
helps to recover erroneous tax refunds, thus          system and ensure that key information is
saving tax dollars.                                   captured as to how each lead is resolved.
WHY TIGTA DID THE AUDIT                               The IRS agreed with our recommendations.
This audit was initiated because the External         The IRS is evaluating the treatment streams and
Leads Program has grown from 10 partner               work processes associated with the various
financial institutions returning $233 million in      types of referrals received in the External Leads
Calendar Year 2010 to 258 partner financial           Program to identify appropriate time frames;
institutions and partner organizations returning      completing other systemic and procedural
more than $576 million in Calendar Year 2013.         enhancements to improve the effectiveness of
The overall objective of this review was to           existing reporting capabilities in evaluating
assess the effectiveness of the IRS’s External        program quality and timeliness; and evaluating
Leads Program in recovering questionable tax          the feasibility and potential benefits of
refunds.                                              consolidating the four independent inventory
                                                      tracking databases into one system.
WHAT TIGTA FOUND
Since taking over the External Leads Program in
January 2010, the Wage and Investment
Division has performed outreach in an effort to
continuously increase the number of
organizations participating in this program.
Participation and the number of questionable
refunds returned and dollars associated have
grown significantly. The IRS measures the
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          August 7, 2014


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The External Leads Program Results in the
                             Recovery of Erroneously Issued Tax Refunds; However, Improvements
                             Are Needed to Ensure That Leads Are Timely Verified
                             (Audit # 201340028)

 This report presents the results of our review to assess the effectiveness of the Internal Revenue
 Service’s (IRS) External Leads Program in recovering questionable tax refunds. This audit is
 included in our Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                            The External Leads Program Results in the Recovery
                        of Erroneously Issued Tax Refunds; However, Improvements
                            Are Needed to Ensure That Leads Are Timely Verified




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The External Leads Program Results in the Return of
          Millions of Dollars in Questionable Tax Refunds ........................................ Page 4
          Leads Are Not Always Timely Verified ....................................................... Page 5
                    Recommendations 1 and 2: ................................................ Page 8

          Leads Are Inconsistently Tracked and Information Is
          Not Available Regarding Lead Resolution ................................................... Page 8
                    Recommendation 3:.......................................................... Page 9

          Offsets of Erroneously Issued Tax Refunds Cause Significant
          Burden to States ............................................................................................ Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Management’s Response to the Draft Report ...................... Page 16
           The External Leads Program Results in the Recovery
       of Erroneously Issued Tax Refunds; However, Improvements
           Are Needed to Ensure That Leads Are Timely Verified




                     Abbreviations

ACH            Automated Clearing House
CY             Calendar Year
IRS            Internal Revenue Service
RICS           Return Integrity and Correspondence Services
                      The External Leads Program Results in the Recovery
                  of Erroneously Issued Tax Refunds; However, Improvements
                      Are Needed to Ensure That Leads Are Timely Verified




                                      Background

The External Leads Program is an Internal Revenue Service (IRS) program that receives external
communications (leads) about questionable tax refunds identified by a variety of partner
organizations that include financial institutions, brokerage firms, government and law
enforcement agencies, State agencies, tax preparation entities, and others. The questionable tax
refunds identified by these organizations include
Treasury checks, direct deposits, and prepaid debit
cards. Characteristics used by stakeholders to              The IRS reports that in Calendar
                                                          Year 2013, questionable tax refunds
identify questionable Federal tax refunds include a
                                                             totaling more than $576 million
mismatch between the name and account number of             were returned as a result of the
the direct deposit and the partner financial                    External Leads Program.
institution’s records, unusual deposit amounts, or
suspicions of false information used to request a
refund. Once a questionable refund is identified, a referral (the IRS refers to these as “leads”) is
sent to the IRS to research the validity of the refund.

Lead notification and return of questionable refund methods
The majority of the questionable refund leads the IRS receives are via a secure e-mail address
that the IRS set up for the External Leads Program. For leads submitted via e-mail, the IRS
requires the referring organization to prepare and include a spreadsheet with key information
relating to the questionable refund identified. The information includes the name and Social
Security Number of the refund recipient and the tax year, which helps the IRS associate the
refund with the originating tax return and tax account. A second referral process allows the
U.S. Department of Health and Human Services to notify the IRS of offsets of questionable tax
refunds to State agencies for the payment of an individual’s back owed child support. Finally,
partner organizations can also systemically reject direct deposit refunds back to the IRS.
Systemically rejected refunds are returned to the taxpayer’s account and held until the IRS
completes its verification of the refund.
The IRS categorizes leads based on the method that the IRS receives the returned questionable
refund. Figure 1 provides information showing the lead types, along with a description of how
the refunds are returned, and the amount of questionable refunds returned during Calendar
Year (CY) 2013.




                                                                                             Page 1
                         The External Leads Program Results in the Recovery
                     of Erroneously Issued Tax Refunds; However, Improvements
                         Are Needed to Ensure That Leads Are Timely Verified



          Figure 1: Method Leads Received and the Amounts of Tax Refunds
                               Returned for CY 2013

                                                                                             Amount of
        Lead Type                 Method Questionable Refund Returned                     Refunds Returned

    Secure E-Mail                 Electronic transfer of returned refund to an IRS           $ 421,451,514
                                  account or paper check mailed to the IRS.
    Offset                        U.S. Department of Health and Human Services               $ 76,541,3831
                                  Office of Child Support Enforcement notifies the
                                  IRS of questionable tax refunds offset to State
                                  child support agencies.
    Systemic Reject –             Systemically rejected back to the IRS.                      $ 67,877,112
    (Opt-In R17)2
    Systemic Reject –             Systemically rejected back to the IRS.                      $ 11,107,799
    (Automated
    Clearing House)3

                                                                                 Total       $ 576,977,808

    Source: IRS Return Integrity and Correspondence Services, External Leads Program.

Processing of questionable refund leads
The IRS’s Wage and Investment Division Return Integrity and Correspondence Services (RICS)
Unit is responsible for processing leads that are received to determine if the refund issued by the
IRS was erroneous. The leads are processed by RICS Unit staff located in Fresno, California;
Covington, Kentucky; and Brookhaven, New York.
When a lead is received, a tax examiner performs research to determine if the tax refund was
issued erroneously. Research includes a review of third-party reported income and withholding
information, if it is available, or contact with employers to confirm the validity of wages and
withholding reported on the tax return. If the tax examiner cannot verify the income and
withholding, the tax refund is considered as being erroneously issued, and the tax examiner will
request the referring organization to return the erroneous tax refund if the funds were not


1
  This represents amounts returned to the IRS and can include amounts returned during CY 2013 for CY 2012
offsets.
2
  Beginning in January 1, 2013, participating institutions can return refunds when the names on the tax refund and
bank account do not match or the deposit has been identified as questionable. When this occurs, an automatic hold
is placed on the refund to prevent the issuance of a paper check.
3
  This process is similar to the Opt-In process; however, a tax examiner must place a hold on the refund within
24 hours of receiving the lead to try and prevent reissuance as a paper check since a paper check would be sent out
within five days of the Automated Clearing House reject.
                                                                                                            Page 2
                      The External Leads Program Results in the Recovery
                  of Erroneously Issued Tax Refunds; However, Improvements
                      Are Needed to Ensure That Leads Are Timely Verified



previously returned when the lead was initially submitted. The tax examiner will also coordinate
with employees in the IRS’s Submission Processing function to adjust the tax accounts
associated with the confirmed erroneously issued tax refund, including posting the refund back to
the taxpayer’s account.
This review was performed at RICS Unit External Leads teams in Fresno, California, and
Covington, Kentucky, and with information obtained from the Wage and Investment Division’s
RICS Unit Headquarters organization in Atlanta, Georgia, and Austin, Texas, during the period
May 2013 through February 2014. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                         The External Leads Program Results in the Recovery
                     of Erroneously Issued Tax Refunds; However, Improvements
                         Are Needed to Ensure That Leads Are Timely Verified




                                       Results of Review

The External Leads Program Results in the Return of Millions of
Dollars in Questionable Tax Refunds
Since taking over responsibility for the External Leads Program in January 2010, the Wage and
Investment Division has performed outreach in an effort to continually increase the number of
organizations participating in this program. Participation and the number of questionable
refunds returned and dollars associated have grown significantly from CY 2010 to CY 2013.
The IRS measures this Program’s success by volume and dollars associated with questionable
returned refunds. Figure 2 provides a multiyear comparison of partner organizations
participating in the program as well as the volume and dollars associated with questionable tax
refunds returned.
                          Figure 2: External Leads Program Statistics -
                                    CY 2010 Through CY 2013

                                    Participating
                                       Partner              Refunds             Dollar Total
                       CY           Organizations           Returned         Refunds Returned

                      2010                 10                 53,252             $233,209,075
                      2011                 31                 43,175             $331,536,348
                      2012                126                264,536             $896,927,6344
                      2013                286                195,550             $576,977,808
                 Source: IRS RICS Unit, External Leads Program.

Figure 2 shows that since CY 2010 there has been a dramatic growth in program participation
and the volume of returned questionable tax refunds. In response to this growth, the Wage and
Investment Division allocated additional resources to the program. For example, when the Wage
and Investment Division took over responsibility for the program, there were eight employees
(four permanent and four seasonal)5 assigned to review and process leads. Currently, there are
84 employees (41 permanent and 43 seasonal), as well as eight leads and seven managers


4
  The volume of refunds returned and dollars associated with CY 2012 were higher than other calendar years as a
result of a year-long effort during CY 2012 to recover erroneously issued tax refunds related to debit cards and the
implementation of additional fraud filters in CY 2013 that stopped fraudulent refunds from being issued.
5
  Seasonal means annually recurring periods of work that are less than 12 months each year.
                                                                                                              Page 4
                          The External Leads Program Results in the Recovery
                      of Erroneously Issued Tax Refunds; However, Improvements
                          Are Needed to Ensure That Leads Are Timely Verified



assigned to this program. In addition, the IRS continues to implement more efficient methods
for returning questionable tax refunds to the IRS. For example, the IRS worked with the
Department of the Treasury’s Bureau of the Fiscal Service6 to establish an electronic method (the
Credit Gateway) for banks to return questionable funds to the IRS. This process allows banks to
return questionable tax refunds, with the refund credited back within 24 hours.
The IRS also recognizes that returned refunds equate to an erroneously issued tax refund. As
such, the IRS has established processes to research leads in an attempt to identify trends that can
be used to improve its fraud detection filters. Fraud detection filters are used to identify
questionable tax refunds at the time tax returns are processed and before refunds are erroneously
issued. For example, by analyzing leads, the IRS identified a trend that involved fraudulent tax
returns with a filing status of married filing joint and the tax returns were prepared using a
specific electronic tax preparation package. The IRS adjusted its fraud detection filters to
identify questionable tax returns with these types of characteristics when tax returns are
processed.

Leads Are Not Always Timely Verified
Our review identified that the IRS is not always verifying leads timely, and verification time
frame goals differ significantly based on the lead type. Figure 3 provides the results of our
analysis of verification timeliness by external lead type.




6
    Formerly the Department of the Treasury Financial Management Service.
                                                                                             Page 5
                           The External Leads Program Results in the Recovery
                       of Erroneously Issued Tax Refunds; However, Improvements
                           Are Needed to Ensure That Leads Are Timely Verified



                      Figure 3: Analysis of Timeliness of Lead Verifications

                             Verification            Leads           Leads Not Verified     Percentage of Leads
          Lead Type             Goal               Reviewed7              Timely             Not Verified Timely
                                                                                 8
    E-Mail                     10 Days               50                     35                        70%
    Offset                     30 Days               50                      32                       64%
                                         9                10
    Automated Clearing         10 Days               26                       6                       23%
    House (ACH)
    Opt-In R17                 70 Days             17,756                 1,124                        6%
Source: Treasury Inspector General for Tax Administration review of external leads, analysis of the external lead
inventory data maintained by the IRS, and the Master File.

Specific characteristics relating to the four categories of leads we reviewed include:
            E-Mail – For the 35 leads that we identified as not verified timely, we found that it took
             tax examiners an average of 66 days to verify these leads, with a verification range from
             16 days to 180 days.11
            Offset – For the 32 leads that we identified as not verified timely, we found that it took
             tax examiners an average of 70 days to verify these leads, with a verification range from
             38 days to 152 days.
             Discussions with three State Child Support Enforcement office directors confirmed what
             we identified. These individuals indicated that on average it takes the IRS from 60 to
             80 days to respond as to whether the offset referred back as questionable is a valid refund
             or was erroneously issued. However, one director described waiting for the IRS’s
             determination for six to eight months. For example, it was not until the end of
             January 2014 that this office received the last of the IRS’s determination for offset leads
             submitted during CY 2012.




7
  The results of E-Mail, Offset, and Automated Clearing House leads are based on our review of a statistical random
sample of these leads. The results of Opt-In leads are based on 100 percent analysis. Limitations with the external
leads inventory tracking systems prevented us from addressing timeliness for the entire population of E-Mail, Offset,
and Automated Clearing House leads.
8
  Sixteen of the 35 E-Mail lead accounts reviewed were from a single large lead involving 27,153 accounts.
9
  The IRS’s verification time frame goal for ACH leads is to immediately put a refund hold on the taxpayer’s
account. However, because leads related to ACH rejects are received through e-mail, we used the same time frame
goal established for E-Mail leads.
10
   For 24 of the 50 ACH rejects, we could not determine if the leads were timely worked because resolution
information was not captured by the IRS.
11
   The 180 days related to the one lead with thousands of accounts.
                                                                                                            Page 6
                      The External Leads Program Results in the Recovery
                  of Erroneously Issued Tax Refunds; However, Improvements
                      Are Needed to Ensure That Leads Are Timely Verified



      ACH Rejects – For the six leads that we identified as not verified timely, we found that it
       took tax examiners an average of 64 days to verify these leads, with a verification range
       from 26 days to 130 days.
      Opt-In R17 Rejects – For the 1,124 leads that we identified as not verified timely, we
       found that it took examiners an average of 95 days to verify these leads, with a
       verification range from 71 days to 153 days.
The IRS has not established processes to monitor lead verifications to ensure that the leads are
timely verified. When we discussed our results with IRS management, management stated that
they established verification timeliness goals as the program evolved and stated that stronger
documentation and the establishment of program measures would allow management to better
evaluate the program.

Lead verification timeliness goals are inconsistent
Although the IRS established timeliness goals, our review identified that these goals vary
considerably by lead type. For example, the Internal Revenue Manual states that, in most cases,
leads should be reviewed, screened, verified, and a response as to the validity of the refund sent
to the referring organizations within 10 business days. However, according to management, the
10-day standard applies only to those leads received by e-mail, whereas the verification goal
established for Opt-In leads is within 70 days, and the goal for Offset leads is within 30 days.
The questionable refunds associated with the Opt-In leads and Offset leads are protected from
being issued, i.e., the refunds are automatically frozen, until a tax examiner can complete the
verification process. However, the time frames established for verification of these leads does
not take into consideration the burden on legitimate taxpayers whose refund is being held until
the verification is completed. When we questioned IRS management as to their basis for
establishing a verification time frame for Opt-In leads of 70 days, management indicated that the
processes needed to resolve the account are extensive (adjusting the account, waiting for the
adjustments to properly post, etc.).
IRS management’s explanation does not appear to justify the establishment of the much longer
verification time frame goal, because the actions needed to resolve an account associated with
Opt-In leads are similar to the actions needed to resolve the accounts associated with the other
types of leads. In addition, our analysis of the Opt-In leads received by the IRS during the period
February 6 to July 19, 2013, determined that 42 percent were verified within 10 business days,
and that the average time to verify all 17,756 leads was 24 days, well below the current 70-day
time frame.
The more likely explanation for the difference in time frames is the risk involved. The risk of
erroneous issuance of a refund associated with Opt-In and Offset leads is low because those
refunds are automatically held until verification is complete. Whereas, the risk of erroneous
issuance of a refund associated with ACH and E-Mail leads is high because the IRS needs to

                                                                                            Page 7
                        The External Leads Program Results in the Recovery
                    of Erroneously Issued Tax Refunds; However, Improvements
                        Are Needed to Ensure That Leads Are Timely Verified



initiate actions to prevent the release of the questionable refund. Notwithstanding, taxpayer
burden should also be considered in establishing the verification time frames. As such, we
believe the IRS should establish more consistent verification time frames for the different types
of leads.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Establish more consistent time frames to verify leads. The time frames
should be based on analysis of current and historical lead verification data. Once established,
communicate verification time frames with external partner organizations.
        Management’s Response: The IRS agreed with the recommendation. The IRS is
        evaluating the treatment streams and work processes associated with the various types of
        referrals received in the External Leads Program to identify appropriate time frames for
        each process and opportunities where gains in consistency may be achieved. The time
        frames established for the verification processes will be clearly communicated to its
        external partners.
Recommendation 2: Develop a process to ensure that leads are verified within established
time frames.
        Management’s Response: The IRS agreed with the recommendation. It has
        implemented procedural changes that are having positive effects on the timeliness of lead
        identification and verification activities. The IRS is completing other systemic and
        procedural enhancements to improve the effectiveness of existing reporting capabilities in
        evaluating program quality and timeliness.

Leads Are Inconsistently Tracked and Information Is Not Available
Regarding Lead Resolution
Our review of 50 E-Mail leads found that the IRS’s lead inventory tracking system accurately
accounted for these leads.12 However, the process for tracking the leads is inconsistent and does
not provide key information such as how the lead was resolved, i.e., refund confirmed as
erroneously issued or legitimate. For example, the IRS tracks leads received from partner
organizations using four different systems. Offset and Opt-In leads are tracked in separate
systems by individual questionable tax refund and provide detailed information relating to the
returned refund, including the individual’s name and Social Security Number. The ACH and
E-Mail leads are tracked in another system by an aggregated total number of questionable tax

12
   We reviewed a random sample of 50 E-Mail leads between January 2, 2013, and August 17, 2013. See Appendix
I for details on our sampling methodology.
                                                                                                     Page 8
                      The External Leads Program Results in the Recovery
                  of Erroneously Issued Tax Refunds; However, Improvements
                      Are Needed to Ensure That Leads Are Timely Verified



refunds the organization is referring to the IRS because the leads, when sent, include information
for multiple individuals. Individual taxpayer account information associated with the ACH and
E-Mail leads is then maintained in yet another system and can be cross-referenced using the
ACH/E-Mail lead number assigned by the IRS to the original aggregate lead received.
The IRS indicated that multiple tracking systems are used because the leads are received from
different sources. E-Mail and ACH leads are provided in spreadsheets that contain information
for multiple accounts, Opt-In leads are identified individually because they are received
individually, and Offset leads are identified by each questionable tax refund. While we were
able to account for the leads we sampled, maintaining multiple lead tracking systems results in
the inconsistent capture of lead information. For example, tax examiners working Offset leads
update the inventory tracking system for each refund indicating whether the refund was
confirmed as erroneously issued. However, tax examiners working E-Mail leads do not update
the E-Mail lead tracking system for each refund to indicate whether a refund was determined to
have been erroneously issued.
In addition, our review of a statistical random sample of 50 questionable tax refunds returned
through the ACH process identified 25 questionable tax refunds totaling more than $81,000 that
were systemically rejected back to the IRS and then subsequently reissued as a paper refund
check. However, information was not captured as to how these leads were resolved. As a result,
we could not determine if the refund was a valid refund that should have been reissued or it was
reissued in error. Consistently capturing information as to how leads are resolved would
improve management’s ability to identify trends and patterns that would allow them to refine the
upfront fraud filters and adjust case processing standards to further strengthen the External Leads
Program.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should consolidate
the current four lead inventory tracking systems into a single tracking system and should ensure
that key information is captured as to how each lead is resolved.
       Management’s Response: The IRS agreed with the recommendation. It is
       evaluating the feasibility and potential benefits of consolidating the four independent
       inventory tracking databases into one system. The data recorded in the tracking systems
       are also being reviewed to determine if additional information is needed to improve
       monitoring and reporting capabilities.




                                                                                            Page 9
                          The External Leads Program Results in the Recovery
                      of Erroneously Issued Tax Refunds; However, Improvements
                          Are Needed to Ensure That Leads Are Timely Verified



Offsets of Erroneously Issued Tax Refunds Cause Significant Burden
to States
Representatives from the U.S. Department of Health and Human Services’ Office of Child
Support Enforcement noted that approximately $2 billion in tax refunds are offset for individuals
who owe back child support payments each year.13 Representatives from this office raised
concern regarding the increase in the number of tax refund offsets that the IRS subsequently
reverses, months or even years later, as an erroneously issued tax refund. This creates a financial
burden on the States when they have already distributed the amount from the tax refund offset to
the individual owed the funds. For the reversed refunds, the IRS’s actions result in a reduction
of the next month’s disbursement of offsets to the State by the amount of the refunds reversed.14
However, there is no assurance that the States will recover the funds from the individuals to
whom the money was paid and, even if the funds are recovered, there may be a substantial delay
between the disbursement and the repayment. This is resulting in significant budget shortfalls
for the States because they have to use money from their own budgets to cover the losses
associated with the refunds the IRS initially offsets and then subsequently reverses.
According to the Office of Child Support Enforcement, further compounding the losses to the
States is that once the IRS identifies a current fraudulent tax filing, it will often review prior filed
tax returns to determine if these were also fraudulent. When the IRS determines that fraudulent
tax refunds were offset for child support in prior years, the refunds are also reversed, and the
amount of disbursement to the State is reduced despite the fact that the money was already issued
by the State some years earlier.
For example, according to statistics provided by the State of Florida, the amount of IRS offset
reversals dramatically increased in CY 2013 to more than $8.5 million, with the majority of the
reversals (about $5.5 million) relating to offsets from Tax Year 2010. Since the offset reversals
are from a prior year, the State of Florida has previously distributed the funds to individuals
owed the child support. As a result, the State is required to either attempt to collect the funds
back from these individuals or has to absorb the costs itself.
The financial burden resulting from the IRS’s offset of erroneously issued tax refunds has
necessitated the States to develop processes to assume what should be the IRS’s responsibility of
identifying potentially questionable tax refunds that were offset by the IRS in error before the
States distribute the funds. About 43 states have established processes in an attempt to identify
questionable child support offset payments and, once identified, refer the offset back to the IRS.
For example, during CYs 2012 and 2013, States referred more than $237.7 million in child

13
   The Internal Revenue Code sections 6402 (a), (c), (d) and (e) require a taxpayer’s overpayment to be applied to
any outstanding nontax child support prior to crediting the overpayment to a future tax or making a refund. This
application of a tax overpayment is called a refund offset.
14
   We could not determine if the prior year offset reversals were the direct result of the actions of the External Leads
program or a result of another function at the IRS.
                                                                                                               Page 10
                       The External Leads Program Results in the Recovery
                   of Erroneously Issued Tax Refunds; However, Improvements
                       Are Needed to Ensure That Leads Are Timely Verified



support offsets that they identified as being questionable tax refunds. Figure 4 provides the
number of questionable tax refund child support offsets for CYs 2012 and 2013 that the
U.S. Department of Health and Human Services referred to the IRS, the number of offsets the
IRS deemed to have been erroneously issued, and the total amount of tax refund offsets
associated with these erroneously issued refunds.
             Figure 4: Office of Child Support Enforcement Referrals of
         Questionable Tax Refund Child Support Offsets – CYs 2012 and 2013

             Offsets Referred As Questionable     Offsets Confirmed by the IRS As Erroneous
    CY          Number            Amount              Number                  Amount

   2012           42,311          $145,488,314         20,415                $ 99,928,790

   2013           32,590          $ 92,214,528         16,928                $ 52,944,469

   Total          74,901          $237,702,842         37,343                $152,873,259

Source: IRS RICS Unit, External Leads Program.

The Internal Revenue Code requires the IRS to apply taxpayers’ overpayments, i.e., refunds, to
any outstanding Federal tax, nontax child support, Federal agency nontax debt, e.g., student loan,
or State income tax obligation prior to refunding the overpayment to the taxpayer. Based on the
concerns raised during our review, we plan to conduct a subsequent audit to review the IRS’s
offset program.




                                                                                            Page 11
                         The External Leads Program Results in the Recovery
                     of Erroneously Issued Tax Refunds; However, Improvements
                         Are Needed to Ensure That Leads Are Timely Verified



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the IRS’s External Leads
Program in recovering questionable tax refunds. To accomplish this objective, we:
I.      Assessed the effectiveness of the IRS’s strategy to promote the External Leads Program
        to increase institution and agency participation.
II.     Determined if the IRS has an effective process to track and control leads and ensure that
        leads are timely resolved.
        A. Identified and evaluated the IRS’s process for tracking and controlling leads by
           reviewing applicable Internal Revenue Manual guidance and interviewing IRS
           personnel.
        B. Identified a population of 2,080 E-Mail leads from the e-mail inbox that were
           received by the External Leads Program between January 2, 2013, and
           August 17, 2013. We selected a random sample of 50 E-Mail leads from the
           population of 2,080. A random sample was used to ensure that each E-Mail lead had
           an equal chance of being selected, which enabled us to obtain sufficient evidence to
           support our results. For the sample selected, we determined if the E-Mail leads were
           accounted for on the inventory tracking spreadsheet.
        C. Assessed the effectiveness of the IRS process to ensure that external leads are timely
           worked by reviewing a statistically valid random sample of 200 external leads
           (50 each of ACH, E-Mail, Offset, and Opt-In leads) from a population of
           158,713 leads. We used a 95 percent confidence level, a ± 5 percent precision rate, and
           a 15 percent error rate. We made the sample selection with the assistance of a contracted
           statistician. For our review of timeliness of the Opt-In R17 rejects, we were able to
           perform analysis on 100 percent of the leads (17,756) instead of using the sample of
           50 leads. We identified the Opt-In leads by obtaining an Individual Master File1 extract
           of taxpayer accounts with a Transaction Code 841 with Document Locator Number
           Blocking Series 77711 (indicating an Opt-In reject) in Tax Years2 2011 and 2012.
III.    Determined if the IRS has an effective process to use the results of the external leads to
        improve fraud detection filters. We did this by interviewing External Leads Program and

1
  The Master File is the IRS’s database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 12
                         The External Leads Program Results in the Recovery
                     of Erroneously Issued Tax Refunds; However, Improvements
                         Are Needed to Ensure That Leads Are Timely Verified



        RICS Unit management to determine if analysis was performed on tax returns identified
        as fraudulent through the External Leads Program. We assessed whether the IRS was
        effectively using the tax return information from fraudulent tax refunds identified and
        returned by partner financial institutions to improve fraud detection within IRS processes.
IV.     Evaluated the effectiveness of the IRS’s process for working child support offsets by
        interviewing IRS personnel, representatives from the U.S. Department of Health and
        Human Services’ Office of Child Support Enforcement, and representatives from the
        child support offices of three States.
V.      Determined the method used to measure the success of the External Leads Program and
        whether those measures effectively measure the success of the program.
Data validation methodology
During this review, we relied on data from the IRS’s Individual Master File for Processing
Year3 2013 provided by the Treasury Inspector General for Tax Administration Office of
Investigations’ Strategic Data Services and also performed additional extracts of the Individual
Master File located on the Treasury Inspector General for Tax Administration Data Center
Warehouse. We selected random samples of the data and validated the results using the IRS’s
Integrated Data Retrieval System.4 Through our testing, we determined that the data used in our
review were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS processing of external
leads submitted by partner financial institutions via e-mail, direct deposit tax refunds rejected by
partner financial institutions, and child support offsets questioned by the States. We evaluated
these controls by interviewing IRS management, performing a case review of a random sample
of questioned tax refunds submitted to the IRS, and performing data analysis of Master File
information for the transactions relating to these tax refunds.




3
  The calendar year in which the tax return or document is processed by the IRS.
4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 13
                     The External Leads Program Results in the Recovery
                 of Erroneously Issued Tax Refunds; However, Improvements
                     Are Needed to Ensure That Leads Are Timely Verified



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Diana M. Tengesdal, Acting Director
Kathleen Hughes, Audit Manager
David Robben, Lead Auditor
Annette Bates, Senior Auditor
Levi J. Dickson, Senior Auditor
Tracy Hernandez, Auditor
Steven Vandigriff, Information Technology Specialist




                                                                                          Page 14
                    The External Leads Program Results in the Recovery
                of Erroneously Issued Tax Refunds; However, Improvements
                    Are Needed to Ensure That Leads Are Timely Verified



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 15
         The External Leads Program Results in the Recovery
     of Erroneously Issued Tax Refunds; However, Improvements
         Are Needed to Ensure That Leads Are Timely Verified



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 16
    The External Leads Program Results in the Recovery
of Erroneously Issued Tax Refunds; However, Improvements
    Are Needed to Ensure That Leads Are Timely Verified




                                                    Page 17
    The External Leads Program Results in the Recovery
of Erroneously Issued Tax Refunds; However, Improvements
    Are Needed to Ensure That Leads Are Timely Verified




                                                    Page 18
    The External Leads Program Results in the Recovery
of Erroneously Issued Tax Refunds; However, Improvements
    Are Needed to Ensure That Leads Are Timely Verified




                                                    Page 19
